July 27, 2020
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

No. 19-968, Uzuegbunam v. Preczewski

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Petitioners and Respondents jointly
request that the time in which to file their respective briefs on the merits in the
above-referenced case be extended for 14 days. The Court granted the petition for
writ of certiorari on July 9, 2020. Absent an extension of time, Petitioners’ brief on
the merits would be due on August 24, 2020 and Respondents’ brief on the merits
would be due on September 23, 2020. See S. Ct. R. 25.1-2.
Counsel for Petitioners and Respondents seek an extension of time in which
to file their briefs on the merits due to numerous factors, including the weighty
constitutional matters at issue, the press of other litigation deadlines, and the
restrictions currently being experienced due to COVID-19.
Granting Petitioners’ and Respondents’ joint request for an extension will not
prejudice the Court’s ability to schedule oral argument in this case. If the Court
grants a 14-day extension, Petitioners’ brief on the merits would be due on
September 7, 2020, Respondents’ brief on the merits would be due on October 21,
2020, and Petitioners’ reply would be due on November 20, 2020. Ample time would
still exist for the Court to schedule oral argument in the above-referenced case
during the December 2020 argument session.
For these reasons, Petitioners and Respondents jointly request that the time
in which to file their briefs on the merits in this matter be extended for 14 days.
Respectfully Submitted,
John J. Bursch
John J. Bursch
Counsel for Petitioners

Honorable Scott S. Harris, Clerk of the Court
July 27, 2020
Page 2

cc:

Andrew Pinson
Solicitor General
Office of Attorney General
Georgia Department of Law
40 Capitol Square SW
Atlanta, GA 30334
APinson@law.ga.gov

